  December 7, 2005




Financial Management
Accuracy of the Contributions to the
Medicare-Eligible Retiree Health Care
Fund
(D-2006-034)




                 Department of Defense
             Office of the Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
       Additional Copies

       To obtain additional copies of this report, visit the Web site of the Inspector
       General of the Department of Defense at http://www.dodig.mil/audit/reports or
       contact the Secondary Reports Distribution Unit, Audit Followup and Technical
       Support at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

       Suggestions for Future Audits

       To suggest ideas for or to request future audits, contact Audit Followup and
       Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
       Ideas and requests can also be mailed to:

                        ODIG-AUD (ATTN: AFTS Audit Suggestions)
                        Inspector General of the Department of Defense
                              400 Army Navy Drive (Room 801)
                                  Arlington, VA 22202-4704




Acronyms

IG                 Inspector General
OIG                Office of Inspector General
DFAS               Defense Finance and Accounting Service
                            INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE
                         ARLINGTON, VIRGINIA 22202-4704




                                                                        December 7,2005

MEMORANDUM FOR ASSISTANT SECRETARY OF DEFENSE
                 (COMPTROLLER)/CHIEF FINANCIAL OFFICER
               ASSISTANT SECRETARY OF DEFENSE
                  (HEALTH AFFAIRS)
               ASSISTANT SECRETARY OF THE ARMY
                  (FINANCIAL MANAGEMENT AND COMPTROLLER)
               ASSISTANT SECRETARY OF THE AIR FORCE
                  (FINANCIAL MANAGEMENT AND COMPTROLLER)

SUBJECT: Report on Accuracy of the Contributions to the Medicare-Eligible Retiree
         Health Care Fund (Report N0.D-2006-034)

        We are providing this report for review and comment. The Assistant Secretary of
the Army (Financial Management and Comptroller) did not respond to a draft of the
report; however, we considered comments from Under Secretary of Defense Deputy
Comptroller/ ProgrdBudget, the Assistant Secretary of Defense (Health Affairs), the
Assistant Secretary of Navy (Financial Management and Coniptroller), and the Principal
Deputy Assistant Secretary of the Air Force (Financial Management) when preparing the
final report.
       The comments received from the Under Secretary of Defense Deputy
Comptroller/Program/Budget,the Assistant Secretary of Defense (Health Affairs), the
Assistant Secretary of Navy (Financial Management and Coniptroller) and the Principal
Deputy Assistant Secretary of the Air Force (Financial Management) were responsive.
Based on the comments from the Assistant Secretary of Defense (Health Affairs) we
deleted recommendation 2.C., revised recommendation 4.B., and added recommendation
6. We added recommendation 5. to the Assistant Secretary of the Army (Financial
Management and Comptroller) because the Army improperly withdrew a recommended
suppleniental payment to the Fuiid. We request comments from the Assistant Secretary
of Navy (Financial Management and Comptroller) on recommendation 6. We request
comments from the Assistant Secretary of the Army (Financial Management and
Comptroller), Assistant Secretary of Navy (Financial Management and Comptroller), and
the Assistant Secretary of the Air Force (Financial Management and Comptroller) by
January 6,2005.
       If possible, please send management comments in electronic format (Adobe
Acrobat file only) to Audcolu@dodig.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed /
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).
       Management comments should indicate concurrence or nonconcurrence with the
finding, each applicable recommendation, and the potential monetary benefits.
Comments should describe actions taken or planned in response to agreed-upon
recomn~eiidationsand provide the completion dates of the actions. State specific reasons
for any nonconcurrence and propose alternative actions, if appropriate. If management
nonconcurs with the potential monetary benefits, the comnlents should specify the
amount at issue. Management should also comment on the material management control
weaknesses discussed in Appendix A.
        We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. James L. Kornides at (614) 75 1-1400 ext. 21 1 or Mr. Mark Starinsky at (614) 75 1-
1400 ext. 23 1. For the report distribution, see Appendix B. The team members are listed
inside the back cover.
                               By direction of the Deputy Inspector General for Auditing:



                                         P ~ JGranetto,
                                                   .       CPA
                                       Assistant Inspector General
                                       Defense Financial Auditing
                                                 Service
               Department of Defense Office of Inspector General
Report No. D-2006-034                                                  December 7, 2005
   Project No. D2005-D000FJ-0081.000

          Accuracy of the Contributions to the Medicare-Eligible
                        Retiree Health Care Fund

                                 Executive Summary

Who Should Read This Report and Why? The Military Department managers
responsible for calculating contributions to the Medicare-Eligible Retiree Health Care
Fund should read this report because it discusses the accuracy of each Military
Department’s contributions.

Background. The Medicare-Eligible Retiree Health Care Fund Audit Committee
requested the audit. The Medicare-Eligible Retiree Health Care Fund (the Fund) was
established to pay for health benefits for Medicare-eligible DoD military retirees, other
non-DoD uniformed Service retirees (Coast Guard, Public Health Service, and National
Oceanic and Atmospheric Administration), retiree family members, and survivors of
retirees who are Medicare eligible). The Military Departments and the non-DoD
uniformed Services make contributions to the Fund throughout the year to provide a
reserve from which payments for medical expenses are made. A Board of Actuaries
determines the normal contribution rates paid by the Military Departments. The Military
Departments contributed $3.9 billion to the Fund during the period of our audit, the last
quarter of FY 2004 through the first quarter of FY 2005.

Results. The Military Departments did not provide accurate contributions to the Fund in
the two quarters we reviewed. In the fourth quarter of FY 2004, the Navy overpaid the
Fund by $602,175 and the Air Force underpaid the Fund by $393,235. In the first quarter
of FY 2005, the Military Departments underpaid the Fund by $218.8 million. The
Military Departments need to improve controls to ensure their contributions are accurate.
Additionally, the contribution process will be affected by a legislative change that
requires annual contributions instead of monthly contributions starting in FY 2006, but
implementing guidance was not developed.

Management Comments and Audit Response. The Under Secretary of Defense
Deputy Comptroller)/ Program/Budget concurred with the audit findings and
recommendations and planned to issue new guidance for managing the annual
contribution beginning in FY 2006. The Assistant Secretary of Defense (Health Affairs)
concurred with the audit findings and planned to issue guidance on making corrective
payments. He also planned to disclose all contribution errors in the financial statements.
He nonconcurred with a recommendation to credit a Navy appropriation for the Marine
Corps Reserve FY 2004 contribution error. We agreed with his comments and adjusted
our recommendations. The Assistant Secretary of the Navy (Financial Management and
Comptroller) concurred with the audit finding and recommendation and agreed to credit a
future Navy contribution to the Fund for the amount of the overpayment that the Navy
had made. The Principal Deputy Assistant Secretary of the Air Force (Financial
Management) concurred with the audit finding and recommendations and agreed to take
corrective action. He planned to issue new guidance on disbursing and processing Fund
contributions. He also indicated the Air Force would prepare its contributions to the
Fund instead of DFAS, and it would provide an additional contribution to the Fund.

The draft report was issued July 12, 2005, and we requested that the Assistant Secretary
of the Army (Financial Management and Comptroller) comment on the draft report by
September 12, 2005. No comments were received from the Army. DoD Directive
7650.3 requires that all recommendations be resolved promptly. See the Finding section
of the report for a discussion of management comments and the Management Comments
section of the report for the complete text of the comments.




                                           ii
Table of Contents

Executive Summary                                                              i

Background                                                                    1

Objectives                                                                    1

Findings
     Contributions to the Medicare-Eligible Retiree Health Care Fund          2

Appendixes
     A. Scope and Methodology                                                 10
         Management Control Program Review                                    11
         Prior Coverage                                                       12
     B. Report Distribution                                                   13

Management Comments
     Office of the Under Secretary of Defense (Comptroller)/Chief Financial
         Officer                                                              15
     Assistant Secretary of Defense (Health Affairs)                          18
     Department of the Navy                                                   22
     Department of the Air Force                                              24
Background
    The Medicare-Eligible Retiree Health Care Fund (the Fund) was established in
    FY 2002 under section 1111, title 10, United States Code. In FY 2003, DoD
    began using accrual budgeting to pay for health care for DoD beneficiaries who
    are eligible for Medicare. In accrual budgeting, costs for pensions and medical
    benefits for retirees are recognized during the years in which the employees are
    working in lieu of when the benefits are actually paid. DoD needed to use accrual
    budgeting so that it could build a reserve of funds that would be available at the
    time the medical treatments were rendered and the funding to pay for the
    treatments was needed. The fund is administered by the Assistant Secretary of
    Defense for Health Affairs.

    During the audit, the Military Departments made contributions on behalf of
    approximately 2.2 million full-time and part-time personnel. The three non-DoD
    uniformed Services (Coast Guard, Public Health Service, and National Oceanic
    and Atmospheric Administration) made contributions to the Fund on behalf of
    another 61,200 people.

    The contributions were provided to the Defense Finance and Accounting Service
    (DFAS). DFAS was responsible for managing the fiscal operations of the Fund.
    DFAS invests the Military Departments’ contributions and makes payments from
    the Fund.

    The Fund’s Board of Actuaries determined the monthly normal cost contribution
    rates each Military Department and the other agencies needed to use to calculate
    the amount owed. The Board of Actuaries provided two rates: a full-time and a
    part-time rate. The FY 2004 full-time rate was $381 and the part-time rate was
    $155. In FY 2005, the rates increased to $447 and $261 for each full-time and
    part-time person.

    The Military Departments used the normal contribution rates in the calculation of
    the monthly contributions. As such, the Military Departments’ contributions were
    a product of the applicable rate times the end strength for the most recently
    reported month.


Objectives
    Our audit objective was to review the accuracy of the calculation of the Military
    Departments’ monthly contributions to the Fund. We also reviewed the
    management control program as it related to the overall objective and assessed
    compliance with applicable laws and regulations. The audit supports the DoD
    Office of Inspector General (DoD OIG) audit of the FY 2005 Medicare-Eligible
    Retiree Health Care Fund Financial Statements. See Appendix A for a discussion
    of the scope and methodology and our review of the management control
    program. See Appendix A for prior coverage related to the objectives.


                                        1
                    Contributions to the Medicare-Eligible
                    Retiree Health Care Fund
                    The Military Departments did not always contribute the correct amounts
                    to the Fund in the two quarters we reviewed. In the fourth quarter of
                    FY 2004, the Navy overpaid the Fund by $602,175 and the Air Force
                    underpaid the Fund by $393,235. Additionally, the Military Departments
                    underpaid the Fund by $218.8 million in the first quarter of FY 2005.
                    Inaccurate amounts were paid because the Military Departments did not
                    adhere to control procedures and management in the Departments did not
                    provide adequate oversight. The Military Departments need to improve
                    controls to ensure the contributions are accurate. The process will be
                    affected by a legislative change that requires annual contributions instead
                    of monthly contributions starting in FY 2006, but more effective controls
                    are still necessary.


Contribution Requirements
           The Military Departments were required by section 1116, title 10, United States
           Code to pay into the Fund at the end of each month. The amount paid was to be
           the product of the actuarial contribution rate times the total end strength for that
           month. The monthly end strengths were calculated using the number of members
           of the Military Departments on active duty (other than active duty for training)
           and full-time National Guard duty (other than full-time National Guard duty for
           training only) and members of the Ready Reserve of the Military Departments.

           Contribution Due Dates. DoD Instruction 6070.2 “Department of Defense
           Medicare Eligible Retiree Health Care Fund Operations,” July 19, 2002, required
           the payment of the contributions to the Fund through the use of the Intra-
           Governmental Payment and Collection system. The Military Departments were
           to transfer the calculated amount by 10:00 a.m. “. . . Eastern time on the last
           working day prior to the fifth business day from the end of each month.”


Amount of Contributions
           We began the audit in December 2004 and examined 6 months (July 2004
           through December 2004) of data and contributions to the Fund. The Military
           Departments contributed $3.9 billion to the Fund for the 6-month period from
           July through December 2004. The monthly contributions were generally paid on
           time. During the 6-month period there were 60 contribution payments from the
           Military Departments. ∗ Of those 60 contributions, 51 were paid on time and the
           remaining 9 were late by no more than 1 business day. In all cases, the late
           contributions were in process at the time the payments were due. Each Military
∗
    We counted the single Air Force contribution voucher as three vouchers; one for active-duty Air Force,
    one for the Air Force Reserve, and one for the Air National Guard.

                                                      2
    Department, except for the Air Force, computed the monthly contribution
    amounts, prepared contribution requests, and forwarded the contribution requests
    to DFAS. DFAS itself prepared and computed the Air Force contribution.

    The following table shows the contributions by the Military Departments in the
    fourth quarter of FY 2004 and first quarter of FY 2005.

          Contributions to the Medicare-Eligible Retiree Health Care Fund (in millions)
            Military
                               4th Quarter FY 2004       1st Quarter FY 2005      Total
          Departments1
                                               $213.5                  $1,017.6     $1,231.1
     Army2
     Navy (including                            698.2                     842.1      1,540.3
     the Marine Corps)
                                                531.2                     565.0      1,096.2
     Air Force
                                             $1,442.9                  $2,424.7     $3,867.6
              Totals
     1
         Includes active and reserve Components.
     2
         Net of $636.1 million because of Army overpayments for prior periods.

    Army Overpayments in Periods Prior to the Audit. The active Army’s
    contributions for the fourth quarter of FY 2004 were offset by a $636.1 million
    adjustment for funds due from the Fund to the Army. On April 15, 2004, the
    Army notified the Fund Audit Committee of possible Army overpayments to the
    Fund because of revised end-strength reports. The revision to end strength was
    the result of inappropriate inclusion of the activated reservists in both the active
    Army and Reserve end strength for Fund contribution purposes. The Army
    should not have included the activated reservists in the active Army end-strength
    reports. Subsequently, the Army completed its analysis of the overpayments and
    calculated it had overpaid the Fund by $394.6 million and $241.4 million in
    FY 2003 and FY 2004 respectively. The Army appropriately offset the fourth
    quarter FY 2004 contributions by the amount of the overpayment. In addition, the
    third quarter FY 2004 and year-end FY 2004 Fund Financial Statements and
    footnotes disclosed the overpayment and the corrective action taken. As a result,
    the public accounting firm auditing the financial statements of the Fund, Deloitte
    and Touche LLP, recommended in its Management Letter on Internal Controls
    that the Military Departments’ end-strength reports be provided to DFAS for
    reconciliation to contributions.


Fourth Quarter FY 2004 Contributions
    Navy. The Marine Corps Reserve, a Component of the Department of the Navy,
    made a duplicate contribution for 3,885 enlistees because of a coding error on the
    August 2004 contribution voucher provided to DFAS for payment. The error
    went undetected because the Marine Corps Reserve did not establish adequate
    policies and procedures for preparing Fund contributions. Specifically, the
                                                3
    Marine Corps had not established procedures requiring the reconciliation of
    monthly contributions to data in the Marine Corps accounting systems. DFAS
    was unaware of the coding error and paid the full Marine Corps Reserve
    contribution for August 2004 because DFAS relied on the contribution voucher
    totals instead of individual categories listed. Subsequent to the DFAS payment,
    the Marine Corps Standard Accounting, Budgeting, and Reporting System
    rejected $602,175 of the $6,718,065 contribution amount because of the coding
    error for the 3,885 enlistees. After the Marine Corps system rejected the
    $602,175, the Marine Corps mistakenly believed that a contribution
    underpayment occurred and requested the duplicate contribution of $602,175 in
    September 2004. To correct this overpayment, the Assistant Secretary of Defense
    for Health Affairs should approve a credit against future Marine Corps
    contributions to the Fund for the amount of $602,175.

    Air Force. The Air National Guard, a Component of the Department of the Air
    Force, underpaid the Fund by $393,235 for enlistees participating in two different
    training categories in FY 2004. It made a retroactive adjustment in its September
    2004 contribution for the enlistees. The adjustment was retroactive for the period
    from October 2003 through July 2004. However, the Air National Guard did not
    include contributions for the enlistees for August 2004. It overlooked the August
    2004 data because it had not established formal procedures for processing
    contributions to the Fund. As a result, the Air National Guard underpaid the Fund
    by $393,235. The Air Force, on behalf of the Air National Guard, should pay an
    additional $393,235 to the Fund in FY 2005 to cover the underpayment.

    Internal Controls. The errors that resulted in the overpayments and
    underpayments to the Fund occurred because of internal control weaknesses. To
    improve the accuracy of the Military Department contributions to the Fund, we
    are recommending that the controls be strengthened by documenting and
    publishing appropriate contribution procedures.


First Quarter FY 2005 Contributions
    The Army, Navy, and Air Force used FY 2004 rates instead of the proper FY
    2005 rates to calculate some first quarter FY 2005 contributions. As a result, the
    Army, Navy, and Air Force underpaid the Fund by $218.8 million in the first
    quarter FY 2005. Also, the Army made two unnecessary adjustments to the Fund
    totaling $6,858 which were not material. The Military Departments’
    underpayments to the Fund are discussed below.

    Army. The active-duty Army underpaid the Fund by $131 million for the first
    quarter of FY 2005. The Army contribution for active-duty personnel incorrectly
    used the $381 FY 2004 full-time rate instead of the $447 FY 2005 full-time rate
    in the calculation of the Army’s October, November, and December 2004
    contributions to the Fund. The Army Reserve and Army National Guard used the
    correct rates in their separate contributions.

    Beginning in FY 2005, the Army did not show the rate amount on its contribution
    vouchers. Previous vouchers had shown this information. The omission of the

                                        4
rate may have contributed to the error since no Army or DFAS personnel could
readily determine what rate the Army used in the contribution calculations. Army
officials stated that the error occurred because of turnover of personnel
responsible for the payment. We attributed the Army’s incorrect contribution to
the lack of formal guidance on how the contributions should be calculated. In
lieu of formal procedures, the Army maintained informal procedures that were not
dated, were not official, did not require a comparison of budgeted contribution
amounts to actual contribution amounts, and did not address correction of prior
errors.

During the audit, the Army made a supplemental payment to the Fund to address
$98 million of underpayments. It prepared and submitted a supplemental
payment on February 3, 2005, for $98 million to correct the underpayment. We
reviewed the documentation and determined that the Army owed an additional
$33 million because it used the FY 2004 contribution rate to calculate the October
2004 contribution amount. After our discussions with Army officials, they
prepared a $33 million supplemental payment voucher on March 23, 2005.
However, in October 2005, we found that the Army’s supplemental payment had
not been processed. DFAS officials told us that evidently the Army withdrew the
voucher. Army officials withdrew the voucher believing that the $33 million
supplemental payment was already included in the $98 million supplemental
payment that was made.

The Army also made two unnecessary adjustments to the Fund for immaterial
amounts. Specifically, the Army processed an adjustment on November 29, 2004,
for $1,143 because it increased the October end-strength numbers by three
officers. In another case, the Army processed an adjustment on October 28, 2004,
for $5,715 because it increased the end-strength numbers by 2 officers and 13
enlisted personnel and cadets. The Army processed the adjustments because
contributions to the Fund were based on initial reports that were subsequently
revised. DoD Instruction 6070.2, “Department of Defense Medicare Eligible
Retiree Health Care Fund Operations,” July 19, 2002, does not specifically
require adjustments to contributions based on revisions to the end-strength data.
The DoD Instruction requires the use of the initial manpower reports and does not
provide guidance on adjustments. If all the Military Departments made this type
of monthly adjustments, a significant and unnecessary increase in the DFAS
workload would occur. The Army and the DoD policies need to be modified to
provide expanded guidance on how to determine whether a supplemental payment
is needed. The two Army adjustments totaling $6,858 are negligible when
compared to the $220 million average monthly Army contribution to the fund.

Navy. The active-duty Navy underpaid the Fund by $811,866 for the first quarter
of FY 2005. It incorrectly used the FY 2004 full-time rate instead of the FY 2005
full-time rate to calculate the October 2004 contribution for its full-time enlisted
Naval Reservists. The Navy had not established formal policies for contributions
to the Fund that could have minimized the likelihood of errors. The Navy
contributes for active-duty sailors and full-time Naval Reservists and the Naval
Reserve contributes for part-time Naval Reservists. The Naval Reserve did use
the correct rate in its separate contributions. The active-duty Navy repaid the
Fund in its April 2005 contribution.


                                     5
     Air Force. The Air Force (active-duty and reserves) underpaid the Fund a total
     of $86 million for the first quarter of FY 2005. DFAS Denver computed the
     combined Air Force (active-duty Air Force, Air Force Reserve, and Air National
     Guard) monthly contribution to the Fund and correctly computed the October
     2004 contribution, using the FY 2005 rate. However, when DFAS Denver
     computed the Air Force’s contributions for November and December 2004, it
     incorrectly used FY 2004 rates. DFAS Denver submitted an adjusting voucher on
     behalf of the Air Force and its Reserve Components on January 3, 2005, for an
     additional $86 million to correct its underpayment for November and December.
     The Air Force underpayment included the active-duty Air Force, Air Force
     Reserve, and Air National Guard.

     This miscalculation resulted from errors by DFAS Denver. The Air Force had not
     established the internal controls necessary to ensure the accuracy of the
     contribution payments to the Fund. Specifically, the Air Force did not prepare
     payment vouchers for the Fund. Instead, the Air Force delegated the
     responsibility to DFAS in Denver. Neither the Air Force nor DFAS Denver had
     established procedures for the preparation, review, and approval of the Air Force
     monthly contributions to the Fund. Instead, DFAS Denver prepared the monthly
     consolidated Air Force payment voucher (SF 1049) for the Air Force, Air Force
     Reserve, and Air National Guard based on information e-mailed from those
     Components. The e-mails contained only the strength numbers and did not
     include either the rate or the total contribution amount for that month. While
     DFAS Denver prepares the payment voucher on behalf of the Air Force, the Air
     Force is ultimately responsible for ensuring the contributions to the Fund are
     accurate.


Legislative Changes for FY 2006 Contributions
     The processes the Military Departments used to prepare contributions to the Fund
     need improvement. Upcoming legislative changes make this imperative. Section
     1541 of Public Law 108-375, “National Defense Authorization Act for Fiscal
     Year 2005,” October 28, 2004, amends section 1116, title 10, United States Code
     and replaces the required monthly contributions with a single annual contribution
     to the fund starting on October 1, 2005 (the first quarter of FY 2006). The
     Treasury Department will make an annual contribution based on the certified
     amounts provided by the Secretary of Defense rather than the Military
     Departments providing monthly payments into the Fund. Based on the results of
     our audit, there is a significant risk of contribution overpayments or
     underpayments for FY 2006 unless improvements are made. A risk of inaccurate
     future contribution payments also exists because DoD has not issued guidance to
     implement the change in public law that requires annual contributions.




                                         6
Recommendations, Management Comments, and
  Audit Response
    Deleted, revised, and added recommendations. We deleted draft
    recommendation 2.C. based on comments from the Assistant Secretary of Defense
    (Health Affairs) that indicate issuing a credit in FY 2005 may violate fiscal law
    and added recommendation 6. for the Assistant Secretary of the Navy (Financial
    Management and Comptroller) because the credit had been taken in September
    2005. We also revised recommendation 4.B. to specify that an additional Air
    Force contribution should be made from the proper appropriation. We also added
    recommendation 5. for the Assistant Secretary of the Army (Financial
    Management and Comptroller) because the Army inappropriately withdrew a
    supplemental payment in the amount of $33 million.
    1. We recommend that the Assistant Secretary of Defense
    (Comptroller)/Chief Financial Officer issue written guidance for
    implementing the legislative change requiring annual contributions to the
    Medicare-Eligible Retiree Health Care Fund.

    Comptroller comments. The Deputy Comptroller (Program/Budget) concurred
    with the recommendation and stated that implementing guidance addressing
    management of annual contributions will be issued by May 31, 2006.

    Navy comments. Although not required to comment, the Assistant Secretary of
    the Navy (Financial Management and Comptroller) expressed concern that the
    revised funding methodology could result in inaccurate contributions that impact
    the Military Departments disproportionately.

    Audit response. We understand the Navy’s concern over the revised funding
    methodology; however, the change was directed by law. Our primary concern
    relates to the lack of implementing procedures.

    2. We recommend that the Assistant Secretary of Defense (Health Affairs):
            A. Issue written guidance to the Military Departments outlining the
    criteria and schedule for making corrective payments or requesting
    corrective collections.

           B. Disclose the Military Departments’ contribution errors in the
    footnotes section of the FY 2005 Medicare-Eligible Retiree Health Care Fund
    Financial Statements.

    Health Affairs comments. The Assistant Secretary of Defense (Health Affairs)
    concurred with recommendations 2.A. and 2.B. and stated he will issue written
    guidance in 2005 and disclose the contribution errors in the FY 2005 Medicare-
    Eligible Retiree Health Care Fund Financial Statements.

    3. We recommend that the Assistant Secretary of the Army (Financial
    Management and Comptroller), Assistant Secretary of the Navy (Financial
    Management and Comptroller), and the Assistant Secretary of the Air Force
                                        7
    (Financial Management and Comptroller) establish written procedures for
    their respective contribution processes.

    Navy comments. The Assistant Secretary of the Navy (Financial Management
    and Comptroller) concurred with the recommendations and is willing to prepare
    guidance pending promulgation of guidance from Assistant Secretary of Defense
    (Comptroller)/Chief Financial Officer.

    Air Force comments. The Principal Deputy Assistant Secretary of the Air Force
    (Financial Management) concurred with the recommendation and agreed to issue
    new guidance on disbursing and processing Fund contributions

    4. We recommend that the Assistant Secretary of the Air Force (Financial
    Management and Comptroller):

          A. Direct Air Force personnel to prepare the contributions to the
    Fund instead of delegating the responsibility to DFAS.

          B. Contribute $393,235 to the Fund because of the FY 2004 Air
    National Guard underpayment, provided it is paid from the proper
    appropriation.

    Air Force comments. The Principle Deputy Assistant Secretary of the Air Force
    (Financial Management) concurred with the recommendations and stated that the
    Air Force will prepare the contributions to the Fund instead of DFAS. The
    Assistant Secretary indicated that the Air Force would make an additional
    contribution to the Fund.

    5. We recommend that the Assistant Secretary of the Army
    (Financial Management and Comptroller) process the $33 million
    supplemental payment related to the FY 2005 underpayment.

    6. We recommend that the Assistant Secretary of the Navy
    (Financial Management and Comptroller) properly prepare an adjusting
    accounting entry to record the $602,175 as an adjustment to the FY 2004
    appropriation in accordance with fiscal law.


Management Comments Required
    We request additional comments from the Assistant Secretary of Navy
    (Financial Management and Comptroller) on recommendation 6. In addition, we
    request comments from the Assistant Secretary of the Air Force (Financial
    Management and Comptroller) on revised recommendation 4.B.

    The Assistant Secretary of the Army (Financial Management and Comptroller)
    did not comment on a draft of this report. DoD Directive 7650.3 requires that all
    recommendations be resolved promptly. We request that the Assistant Secretary
    Army (Financial Management and Comptroller), the Assistant Secretary of Navy
    (Financial Management and Comptroller) and the Assistant Secretary of the Air

                                        8
Force (Financial Management and Comptroller) provide comments on the final
report by January 6, 2005.




                                  9
Appendix A. Scope and Methodology
The objective of the audit was to review the accuracy of the calculation of the
Military Departments’ monthly contributions to the Medicare-Eligible Retiree
Health Care Fund as requested by the Fund’s Audit Committee. This audit is in
support of the Deloitte and Touche LLP, audit of the FY 2005 Fund Financial
Statements. We contracted with Deloitte and Touche LLP, to audit the FY 2005
Medicare Eligible-Retiree Health Care Fund Financial Statements and are
providing oversight of that effort.

The Fund includes the Army, Navy, and Air Force and three non-DoD uniformed
Services (Coast Guard, Public Health Departments, and National Oceanic and
Atmospheric Administration). The non-DoD uniformed Services signed an
interagency agreement in February 2003 with DoD to participate in the Fund as
required by section 1111(c), title 10 United States Code. DoD Directive 6070.1
and DoD Instruction 6070.2 apply to the non-DoD uniformed Services.

We visited the Army, Navy, Air Force, Marine Corps, Coast Guard, Public Health
Service, and National Oceanic and Atmospheric Administration. Our audit
announcement did not include the non-DoD uniformed Services; however, we
requested and obtained cooperation from the non-DoD uniformed Services and
we will provide our results to their respective Inspectors General.

We limited our review to the Military Department’s normal contributions for the
last 6 months of calendar year 2004 (the fourth quarter of FY 2004 and the first
quarter of FY 2005). We obtained copies of contribution vouchers from DFAS
Arlington and obtained supporting documentation from the Military Departments.
We reviewed contributions to determine if the Military Departments used the
correct rate, and we recalculated the vouchers using the end-strength information
given in the vouchers. Also, we determined whether the Military Departments
used the most recent end-strength figures, we compared the end-strength
information given in the vouchers to either active-duty end strengths from a
Washington Headquarter Service Web site or from reserve-duty end-strength
reports requested from Defense Data Manpower Center. We noted that the Navy
and the Naval Reserve use budgeted end strengths in their contributions and
adjust their vouchers at the end of the fiscal year to reflect actual end strengths to
budgeted end strengths.
We reviewed documentation to determine whether the Military Departments’
contributions were timely. We compared the Intra-Governmental Payment and
Collection system “accomplished date” for each of the contributions to the due
date. We calculated the due date for each of the 6 months (July through
December 2004) in accordance with paragraph 5.2.2.2 of DoD Instruction 6070.2,
“Department of Defense Medicare Eligible Retiree Health Care Fund
Operations,” July 19, 2002.

We performed this audit from December 2004 through May 2005 in accordance
with generally accepted government auditing standards.


                                     10
    Use of Computer-Processed Data. We did not review the computer systems
    used to process contributions to the Fund. We reviewed the hard copy
    documentation produced by those systems and performed an analytical review on
    the data. We did not review either the computer systems or processes that were
    used to develop the Military Department’s end-strength numbers. We identified
    the source computer systems or processes for which the end-strength data were
    developed. We did not complete a formal assessment of the computer systems or
    processes used to determine the end-strength numbers used in the calculation of
    the contribution amounts. However, we did compare the Military Departments’
    end-strength numbers to other data sources in order to assess the reasonableness
    of the end-strength data.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of DoD financial management which has been identified as a
    high-risk area.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    management controls over the contributions to the Fund. We also reviewed the
    adequacy of management’s self-evaluation of those controls.

    Adequacy of Management Controls. We found material weaknesses in the
    Military Department’s internal controls over the monthly contributions to the
    Medicare-Eligible Retiree Health Care Fund. Specifically, proper normal cost
    contribution amounts were not used, contributions (adjustments) for insignificant
    amounts were processed, and contributions were not properly approved by the Air
    Force. We identified material management control weaknesses for Army, Navy,
    and Air Force as defined by DoD Instruction 5010.40. Specifically, management
    controls over contributions to the Medicare-Eligible Retiree Health Care Fund
    were not adequate to ensure that the amounts paid were accurate.
    Recommendations 1, 2, and 3, if implemented, will correct the identified
    weaknesses and could result in accurate contributions to the Medicare-Eligible
    Retiree Health Care Fund. A copy of the report will be provided to the senior
    officials responsible for management controls in the Army, Navy, and Air Force.
    The recommendations in this report, if implemented, should reduce the possibility
    of contribution errors and should result in sound internal controls.

    Adequacy of Management’s Self-Evaluation. The Assistant Secretary of
    Defense (Health Affairs), DFAS, and Military Departments did not identify
    contributions to the Medicare-Eligible Retiree Health Care Fund as a distinct


                                        11
    assessable unit and, therefore, did not identify or report the material management
    control weaknesses identified by the audit.


Prior Coverage
    During the last 5 years, the DoD Inspector General (DoD IG) issued three reports
    discussing the Medicare-Eligible Retiree Health Care Fund. Unrestricted DoD IG
    reports can be accessed at http://www.dodig.mil/audit/reports. In addition, the FY
    2004 Medicare-Eligible Retiree Health Care Fund Financial Statements, including
    the independent auditor’s report, are available at
    http://www.dod.mil/comptroller/cfs/fy2004.html.

    DoD IG Report No. D-2005-031, “Endorsement of the Management Letter on
    Internal Controls Over Financial Reporting for the FY 2004 DoD Medicare-
    Eligible Retiree Health Care Fund,” January 31, 2005

    DoD IG Report No. D-2005-019, “Endorsement of the Qualified Opinion on the
    FY 2004 DoD Medicare-Eligible Retiree Health Care Fund Financial
    Statements,” November 8, 2004. The report is For Official Use Only. For Official
    Use Only Reports can be requested by filing a Freedom of Information Act
    request.

    DoD IG Report No. D-2003-119, “Controls Over DoD Medicare-Eligible Retiree
    Health Care Fund Investments,” July 31, 2003




                                        12
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense for Health Affairs


Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force


Other Defense Organizations
Director, Defense Finance and Accounting Service
Director, Defense Information Systems Agency


Non-Defense Federal Organization
Office of Management and Budget




                                          13
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        14
Office of the Under Secretary of Defense
Comments




                       15
16
17
               Assistant Secretary of Defense Comments
Final Report
 Reference




Deleted
Recom-
mendation
2.C. and
added
Recom-
mendation 6.




                                     18
     Final Report
      Reference




     Deleted
     Recom-
     mendation
     2.C. and
     added
     Recom-
     mendation 6.




19
20
21
                 Department of the Navy Comments
Final Report
 Reference




Deleted
Recom-
mendation
2.C. and added
Recom-
mendation 6




                                     22
     Final Report
      Reference




     Revised




23
Department of the Air Force Comments




                     24
     Final Report
      Reference




     Revised




25
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of
Defense, Defense Financial Auditing Service Directorate, prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Paul J. Granetto
Patricia A. Marsh
James L. Kornides
Mark Starinsky
Ted R. Paulson
Peter G. Bliley
Meredith Johnson
